Supreme Court, U.S.
FILED

AUG 16 2020
OFFICE OF THE CLERK

20-/10

No.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITIONER

AHMED HALIM

V.
RESPONDENT

UNITED STATES

ON PETITION FOR A WRIT OF CERTIORARI TO
United States Court of Appeals for the Federal Circuit
PETITION FOR A WRIT OF CERTIORARI
Ahmed Halim
8338 Governor Grayson way
Ellicott City, MD 21043
Phone # (601) 227 2000

V

\k\ 1
o L

L

life

!

1

Questions Presented
I
What are the limits on due diligence?
This question can be asked by each citizen in the United States. The
Court of Appeals for the federal circuit extended the due diligence far
Beyond reasonableness and said the petitioner should have the
knowledge and experience of a real estate lawyer, all the experience the
petitioner has was in Academia.
II
Do government officials act in good faith all the time?
Any Citizen will be in disbelief.The court of appeals have long upheld
the principle that government officials discharge their duties in good
faith.
Ill Can the government punish the petitioner for reasons
Beyond his control?
In this petition, the project in Meridian Mississippi where the petitioner
was threatened to go to jail if he worked on the project due to stop order
Department of Housing and Urban Development (HUD) was aware
about it.
IV Can the government apply the same rules differently
depending upon which state the project is located?
In this petition, same rules were applied differently between projects in
New York Mississippi and Ohio.
V
Does the government have the right to keep the petitioner
cash money?
The petitioner gave the government $3,617,000.00 cash on the promise
that he would get it back.These are not taxes or loans.
VI Can the Department of Housing and Urban Development
bid kits considered valid agreements?
These agreements were applied differently , in different states
depending upon your property manager you can get 6 years or 12 years
extension/

11

PARTIES TO THE PROCEEDING
The parties are as named on the front cover
RELATED PROCEEDINGS
The United States Court of appeals for the federal circuit, No. 2019-1478
Ahmed Halim v. United States, (Judgment entered May 12, 2020).
The United States court of federal claims, No. 12-05C, Ahmed Halim v. The
United States of America, (Judgment entered November 19, 2018).

Ill

TABLES OF CONTENTS

Page
Questions Presented

i

Parties to the Proceeding
Related Proceeding-------

ii

Table of Contents

iii

Table OF Authorities

iv

Opinions and Order Below

1

Statements of Jurisdictions

1

Statutory Provisions Involved

1

Statement

•2

11

I

Ohio Complex

3

II

New York Complex

3

III

Mississippi Complex

4

IV

North Complex

5

V

Alabama Complex

6

Reasons for Granting the Writ

8

This Court should grant review to resolve the deviation
of the federal circuit court of appeals ruling, from the authorities
decided by this Court regarding due diligence, impossibilities,
inequalities of application of the same rules in different states
and the right of the government to take citizens money other
than taxes.---------------------------- ------ ------ ---------- --------------------------

8

IV

I

Ohio Property Nicols Townhomes
A

II

III

IV

Petitioner is entitled to summary judgment for Nichols because
decision to deny his request for self management was arbitrary-

New York Complex known as Schenectady 40

8

8
10

A

The government is not entitled to summary judgment on cofint I
of the complaint because there is a genuine issue of material fact
In dispute as to whether the Petitioner completed the repairs at
Schenectady 40........................................................................................... 10

B

The government is not entitled to summary judgment on count II
of the complaint because a genuine issue of material fact in dispute as
whether Petitioner maintained Schenectady 40 in accordance with
12
HUD (UPCS)

Mississippi Apartments aha Meadowbrook apartments

13

A

Petitioner is entitled to summary judgment on count III of the
complaint because it was impossible for Petitioner to complete the
required repairs at Meadowbrook after the stop work order was
Issued.............................................................................................................. 13

B

The government is not entitled to summary judgment on count IV of
The complaint because a genuine issue of material fact in dispute
as whether Petitioner maintained Meadowbrook in accordance with
HUD UPCS
16

North Carolina Apartments aka Beacon Light
A

B

17

Petitioner is entitled to summary judgment on count VI of the
Complaint, because neither party knew that Beacon Light did
Not comply the density and set back requirements.....................

17

Petitioner is entitled to summary judgment on count VIII of the
Complaint because it was impossible for him to make the repairs
At Beacon Light...................................................................................... ---

20

V

Alabama Apartments aks Highland Village apartments in Montgomery to
his $1,555,000.00..................................................................................... ........ 21
Petitioner is entitled to summary judgment on
counts IX, X and XI of the complaint................

Conclusion

21
22

Appendix
Judgment of the United States circuit court of appeals for the federal
Circuit (May 12, 2020)---------------------------------------------------------------------

la

Judgment of the United States court for federal claims (Nov. 19, 2018)—23a
Deceleration of Ahmed Halim­

'S 5a

Parts of Joint Appendix

62a

City of Meridian Certificates of Occupancies

80a

Letter from Elisa Wickham for rental certificate Inspection

99a

Testimony of Lisa Puglise, HUD Supervisor

100a

HUD document regarding Beacon Light-

105a

Self management papers

106a

Elisa Wickham UPCS inspection

114a

Peritioner Complaint

-128a

VI

TABLE OF AUTHORITIES

Page

Cases
CITGO ASPHALT REFINING CO. v. FRESCATI SHIPPING CO.
589 U. S. Supreme Court (March 2020).................................. 18, 19
Anderson v. Liberty Lobby, Inc.,
477 U. S. 242 (1986).......
Celotex Corp v. Catrett,
477 U. S. 317 (1986)

9, 11, 13, 16, 17

9, 10, 16

Aili v. United States,
83 Fed. CL 250 (2008)

14

Dairyland Power Coop. v. United States,
16 F.3d 1197 (Fed. CIR. 1994).......

19

Darwin Constr. Co., Inc. v. United States,
811 F.2d 593 (Fed. Cl. 1987)..........

8

Edwards v. United States,
19 Ct. CL 663 (1990)

19

Goodyear Tire & Rubber Co. v. Releasomers Co.,
824 F.2d 953 ( Fed. CI. 1987)—....................

9, 10

Griffin & Griffin Exploration LLC. v. United States,
116 Fed. CI. 163 (2014).........................................

9

Knotts v. United States,
128 CI. Ct. 489 (1994)

8

Mobile Corp. v. United States,
67 Fed. CI. 708 (2005)—

9

Vll

Philadelphia Regent Builders v. United States,
634 F.2d 569 (Ct, CL 1980)......................

Travelers Cas & Sur. Comp. ofAmer. v. United States,
75 Fed. CL 606 (2007)............... -...........................

15

9

Rules and Regulations
24 C. F. R. @ 5.703(g)

12

23 C. F. R. @ 886.304(b)

12

Fed. R. of Civ. P. 56(c)

9, 10

Fed. R. of Civ. P. 56(c)(1)(A)

10

PETITION FOR A WRIT OF CERTIORARI
Petitioner Ahmed Halim respectfully submits this petition for a writ of
certiorari to review the judgment of the United States court of appeals for the
federal circuit. The court of appeals for the federal circuit issued its opinion and
judgement on May 12th 2020 this court has jurisdiction under 28 USC section 125 for 1
OPINIONS AND ORDERS BELOW
The United States court of appeals for the federal circuit
panel opinion affirming the court of federal claims judgement (App. la-22a). The
opinion of the federal claims court (App. 23a-54a) .

STATEMENT OF JURISDICTION
The court of appeals for the federal circuit issued its opinion and judgement on May
12th 2020. This court has jurisdiction under title 28 U. S. C. @ 1254(1).
STATUTORY PROVISIONS INVOLVED
Title 28 U. S. C.section 13468 (Tucker act provision giving the Court of federal
claims exclusive jurisdiction over claims against the United States that seek more
than $10,000 in damages .
'
Doctrine of Impossibility

1

STATEMENT
Petitioner purchased 5 Apartments complexes from HUD at foreclosure sales. These
are Schenectady 40 in New York, Meadowbrooks in Mississippi, Highland Village
in Alabama, Beacon lights in North Carolina and the Nicolos townhomes in Ohio.
Issues arose from the government refusal of returning the $3,617,000.00 given to it
on the promise it will give it back to the petitioner. The government shouldn't take
cash from the petitioner , as stated in the bid kit, HUD should ask for a letter of
credit (LOC). The petitioner entered into agreement with the government
regarding housing assistance payment known as (HAP) for the New York complex
and Mississippi complex ,the payments under this agreement given on behalf of the
qualified tenants, the petitioner met the uniform physical condition standards
(UPCS) for the 40 units in New York and 6 buildings in Mississippi. Once the
inspector certified that unit passed inspection as he did.
The petitioner met his legal burden, (App 104a) and once a tenant moved into an
apartment, inspection can pass in morning and fail in afternoon. The notation
that this apartment should be passing UPCS inspection all times doesn't make
sense, for example if the tenant remove smoke detector on the wall, unit will fail
inspection not because the petitioner action, but due to the tenant action, The
assertion of the united states court of appeals that the units must comply with
UPCS all times is impossible unless you do inspection every hour 24/7, 7 days a
week all year round.
The assertion of the court of appeals that the units In New York and in Mississippi
Not habitable, too far from the reality, we have had these Apartments since 2006
and we are now in 2020,6 years away from the HUD end of the agreement. We
have tenants, the apartments pass inspection every year as we have evidence to
this court from the local authorities. (App 99a,114a-127a,80a-88a)

2

It is immoral and illegal for this government to use nonsense reasons as means to
take the money. The petitioner and his children put their life at risk to make it.
Again this money is not taxas or loans taken from the government.

I
OHIO COMPLEX
The first of five properties addressed in this petition was a 24 unit in Flushing Ohio.
HUD advertised the sale through a bid kit. In the first sale the petitioner was the
highest bidder with a bid of $266,000,00. The petitioner paid $50,000.00 in cash in
earnest money deposit with the understanding that he will close on the property.
Petitioner submitted the required papers for self-management as he did for the
projects in New York and in Mississippi. All these papers were identical (App
106a-113a), petitioner was approved for self-management in New York and
Mississippi but not in OHIO. HUD acted arbitrarily, capricious and in bad faith
when refused to return the $50,000. HUD argument is self defeating since it's the
same HUD approved self management in New York and Mississippi assuming for
the sake of argument that they wanted the petitioner to have a management
company they threatened the petitioner to find a management company in 3 days or
he would lose his money. Who will be able to find a management company in 3 days.
Finally HUD sold the same property in the second foreclosure sale for $500,000
almost $300,000 in profit. Where are the losses for HUD in dealing with the
petitioner?

II
NEW YORK COMPLEX
The second property addressed in this petition was a 40 in Schenectady known as
Schenectady 40. Sale was held on May 31st 2006, the successful bidder is expected
to do the necessary work within 24 months, however it added such time can be
extended. The assertion by the appeals court that the work must be completed in 24
months is far from what is written in
the bid kit, far from reality, that the work can be done in 24 months, especially in
Schenectady when the severe freezing can be extended for 7 month, for that
reason, bid kits stated such time can be extended. Time was extended and work was

3

completed as evidenced by the letter from the city of Schenectady(App 99a). In 2009
the units are habitable and in 2020 are habitable as evidenced by inspections shown
in the App 99a, 114a-127a, Depending upon what state the project is located, the
time can be

extended as many years as necessary to finish the work. Both the petitioner and
HUD know some owners can get extension up to 12 years.
The point the petitioner is making is the 24 months is not rigid as the appeals court
thinks.
Another agreement entered with HUD was the housing assistance payment(HAP).
It is one of Section 8 programs offered to assist qualified tenants with their rent,As
a rule for the tenant to receive assistance the unit should pass UCPS inspection,
which is mainly related to smoke detectors, outlets, faucets, toilets and making sure
the floor can be mopped. The petitioner met his legal burden when all the
apartments passed inspection (App 104a)before tenants moved in. After a tenant
moves in the tenant is in control of the unit till he is moved out or removed by the
sheriff. Not only HUD is doing this type of inspection, but also the local housing
authority and city inspectors. A scenario is set in motion the night of inspection,
the unit is in compliance with UCPS inspection in the evening, the tenant decides to
remove the smoke detector cause he or she smokes most of our tenants smoke
especially our complex in urban areas very close to downtown so the apartment will
fail inspection in the morning. Where is the owner's fault? Some of our tenants from
2009 came back to the apartment through Section 8 offered by the housing
authority and it passed the same UCPS inspection conducted by HUD. HUD
determination of the petitioner agreement for the housing assistant payment for
reasons beyond his control. HUD acted in bad faith, arbitrarily and capriciously, for
reasons beyond any person's control which mounts to punishment. (Appll4a-124a)
III
Mississippi Complex
The petitioner was the highest bidder for this complex and closed in January
2007. When the petitioner arrived at the complex also known as Meadpwbrook,
there were tenants already there, the previous owner left them with no one taking
care of them The petitioner took care of them till the end of 2007. To the petitioner's
surprise, HUD paid the ex owner almost $50,000.00, and did not pay a penny for
the petitioner (the owner) who served tenants for a whole year. Meadowbrook is a

4

51 units in Meridian Mississippi. According to the HUD inspector, 94% of the work
was completed. Petitioner was a couple months away from finishing the remainder
6%, the city manager issued a stop working order and said that the petitioner will
go to jail if he put one nail in the complex. Here is the federal government which
has power over the local governments and did nothing to let the petitioner finish the
work. After almost 10 months, the city manager physically hit the chief of the
Meridian Police which resulted in his termination. The new city manager
cooperated and lifted the stop order and allowed the petitioner to finish the work.
Instead of HUD cooperating with the petitioner as the city did , HUD acted in the
same manner as it did in the Schenectady project and took the cash balance of the
escrow. Proof of the work completed is shown in the certificates of occupancy issued
by Meridian for buildings 2 through 12. The court of appeals stated that there were
only three certificates of occupancy but they are nine certificates which contradicted
the Court of Appeals. Building number 4 was demolished per HUD instructions.
Buildings 1, 8 and 13 were in operation and Meridian did not condemn them. There
was no reason for a new certificate of occupancy to be issued for these three
buildings,because it was finished and among the 94% work completed per HUD
inspection.To justify HUD apparent reason for default. The inspector came for the
last time to do the final inspection and failed the units without getting inside. This
is the same inspector who passed them before, he simply was cooking the report for
HUD.
As in Schenectady there was ah agreement for HAP which assists qualified
tenants. These apartments were passing the UCPS inspection before the stop order,
especially the units in buildings 1, 2, 8, 9, 12 and 13. The tenants were receiving re
assistance before the stop order issued by violent city manager at the time.As a
result the petitioner was unable to get the rest of the units ready UCPS inspection
because he was threatened to go to jail, if HUD did not act in bad faith, and
cooperated with the petitioner as the city did, all the units would passed the UCPS
inspection but chose to punish the petitioner for reasons beyond his control.
IV
NORTH CAROLINA COMPLEX
The fourth project was a complex located in Henderson. HUD
announced the sale and asked the bidders to do their due diligence before
buying the project, at the same time asking them to repair the units, in all
the buildings and which consisted of 108 units to be repaired. HUD never

5

said a word about demolishing any building. According to Henderson,
HUD knew that the project cannot be developed especially for the
buildings close to the community housing because it did not meet their set
back requirements. Someone offered you a building to repair, what any
buyer will think about the seller advertisement, especially when the seller
is the government of the united states, the buyer would assume the
building can be repaired otherwise it should not sell it in the first place. At
the foreclosure sale, the petitioner was the only bidder and HUD accepted
his bid of $55,000.00, and took in cash ($1,295,000,00) in violation for the
escrow requirements in the bid kit, which stated the escrow should be
LOC or a bond. Petitioner paid all these cash on the belief that he bought
buildings to be repaired to learn later it must be demolished. Due
diligence in this case would be physical inspection of the buildings to see
how much it will cost and what repairs needs to be done. Petitioner
started contacting Henderson to get permits to start the repairs, at that
time the city hired a new city manager who was racist and told the
petitioner that he is going to get this complex off the plate, not only he
said that but he told the local newspaper that this complex looks like
Beirut, Lebanon, he could not find a place in the U. S. to compare with
except going to the middle east, where the petitioner came from which was
a direct assault on the petitioner religion and national origin. Petitioner
submitted a plan to HUD for renovation and applied for a request of
invariance to be able to get the permits and start the process of renovation
Invariance was rejected and Henderson told the petitioner that HUD knew
about the fact that buildings must be demolished. Under these
circumstances the petitioner met HUD officials at the headquarters in
Washington DC. Petitioner complained about the Henderson actions and
the problems he has with it. In the meeting HUD officials represented by
Mr. Wilson and Mr. Mayfield offered the petitioner that HUD will take
back the complex and in return will refund all the money HUD took from
him including ($1,295,000.00) in cash for the deposit plus the price he paid
for it which was $55,000. The petitioner accepted their offer and he was
waiting for his $1,350,000.00 in cash, instead HUD informed him that the
department will keep the cash for them. HUD sells a project that cannot be
developed which is completely misrepresentation and they take
($1,350,000.00) in cash. Nobody would believe what the government of the
United states will do. The government did not lose a penny in dealing with
the petitioner.

6

V
ALABAMA COMPLEX
The fifth project the petitioner purchased from the Department of
Housing and Urban Development was an apartment complex known as
Highland Village Apartments located in Montgomery Alabama of 300 units.
The petitioner will not go in details because the circumstances were
exactly the same as the North Carolina complex. HUD held the sale of this
project twice, the first one in 2006 and the second one in 2007, the two bid
kits were identical, The first sale didn't go through and the second sale
went on. The petitioner purchased The Project based upon HUD
presentation. At the time of the first sale, the project was operating and
the tenants living in it for example when somebody looks at it, you can see
windows, Air Condition Units, electric meters etc. In the second sale the
complex was completely 100% different from the bid kits. The petitioner
gave HUD one million four hundred five thousands dollars in cash
($1,405,000.00)$5,000 based upon HUD presentation to know later that the
amount of repairs are five times or more than what was written in the bid
kits. The petitioner could not go inside the complex for the second sale
fearing for his life because HUD as stated in the bid kits can not schedule
pre inspection, did not guarantee an access to see the project. The
ex-owner was angry with HUD and was scaring people to get in, maybe
physically hurting them. In this situation, petitioner took HUD word to be
correct HUD was aware of the condition of the project at the time of the
second sale, instead of sending their inspector to the project to prepare a
new list of repairs and prepare a different bid kit for the second sale,
chose to use the bid kit from the first sale and deceive the petitioner. If
HUD told the truth, the petitioner would not buy the project.
As in the North Carolina project using the same trick of due
diligence to take ($1,405,000,00) cash.

7

REASONS FOR GRANTING A WRIT OF CERTIORARI
The petitioner presents his reasons to the distinguished justices of this Court
as the last resort, No one knows the pain the petitioner and his children went
through to make this ($3,616,000.00). This is not taxpayers money, not a grant from
the government.
This petition presents many interrelated issues important to every citizen in
the United States .In its ruling, the federal circuit court of appeal deviated from this
Court standards and other circuits as well. This Court should grant a writ of
certiorari to resolve all these issues.
This Court should grant review to resolve the deviation of the federal
circuit court of appeals ruling from the authorities decided by this Court
regarding due diligence, impossibilities, inequalities of application of
same rules in different states and the right of the government to take
citizens money other than taxes.

1

OHIO PROPERTY NICHOLS TOWNHOMES
A.
Petitioner is entitled to summary judgment for Nicolas
because HUD decision to deny his request for self management was
arbitrary

HUD acted arbitrary in denying the request to self manage Nicolas. HUD decisions
must be set aside, (citing Darwin Const. Co.,Inc v. United States, 811 F2d

8

593,598(Fed. Cir. 1987); Knotts v. United States, 128 Ct. Cl. 489,491 (1954)).
Significantly, the government does not dispute that an arbitrary decision by a
federal agency must be set aside if challenged. Instead the government argues that
the HUD decision was not arbitrary. The court of appeals erred in holding that
government officials act in good faith and the little guy acted in bad faith.
HUD had approved the petitioner to self manage five other projects, (hearing
transcripts, App 57a-58a, 106a-113a)
The lower courts and the government have both misapprehended the requirements
under rule 56. As stated by this Court, the non moving party may oppose summary
judgment “by any of the kinds of evidentiary material listed in rule 56(c).” Celotex
Corp. v. Catrett, 477 U.S. 317, 324 (1986) (emphasis added); see also Goodyear Tire
and Rubber Co. v, Rekeaseomers, inc., 824 F2d 953, 957 n.2 (Fed. Cir. 1987) (“The
law is clear, however, that a party may oppose summary judgment by any of the
kinds of evidentiary materials listed in [Fed.R.Civ.P.] 56(c),except the mere
pleadings themselves.’) (citations and internal quotes omitted) (emphasis added).
Moreover, “The Court will not weigh the evidence” when considering a motion for
summary judgment. Travelers Cas. & Sur. Co. of Amer. v. United States, 75 Fed.
Cl. 696, 703 (2007) (citing Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 249
(1986)).
Under the standards enunciated by the Supreme Court and the Federal
Circuit, Petitioner was not required to submit the forms into evidence. Rather, as
contemplated by Rule 56, Petitioner provided an undisputed declaration that HUD
dad approved him to self-manage other five projects when HUD denied his request
to self manage Nicolos and that the forms he submitted for other projects were
essentially the same as the forms he submitted for Nicols. Appx. 1774-1775, 18-20.
Moreover even though “[t]he other foreclosure sale[s] involved different properties
and determination by others individuals and regional offices,” the HUD officials and
office making the decision on petitioner request to self-manage Nicolas had
constructive knowledge that petitioner had been approved to self manage five other
projects. Cf. Griffin & Griffin exploration, LLC v. United States, 116 Fed CI. 163,
175 (2014) (holding that “[wjhile there were a series of miscommunications and
mishaps which led [Bureau of land Management] officials not to have actual actual
knowe;edge of the existence of the prior lease, [Mineral management services]
actual knoweldge may be imputed to BLM because both are agencies within the
Department of Interior]”; Mobil Corp. v. United States, 67 Fed. CI. 708, 717 (2005)
(holding that to determine whether the commissioner of the IRS has constructive
knowledge of an informal claim for a tax refund the evidence relied on “to establish
the informal claim must be in possession of an authorized agent of the

9

Commissioner”). Therefore, the petitioner met his burden under Rule 56.
Accordingly, petitioner is entitled to summary judgment on count V since HUD
decision to deny his request to self-manage Nicols was arbitrary.

II

NEW YORK COMPLEX Known as Schenectady 40
A. The government is not entitled to summary judgment on
count I of the complaint because there is a Genuine issue
of Material fact in Dispute as to whether the petitioner
completed the repairs at Schenectady 40

With respect to Count I of the complaint, the government asserts that
petitioner has not provided any credible evidence that he completed the required
repairs at any point of time.
As discussed above, the nonmoving party may oppose summary judgment “by any
of the kinds of evidentiary material listed in Rule 56(c).”Celotex, 477U.S. at 324
(emphasis added). Declarations are included in “the kinds of evidentiary material
listed in Rule 56(c).”Fed.R.Civ.P 56(c)(1)(A).
As stated in his declaration, petitioner “completed all of the repairs “ at
Schenectady 40 “by October (2009).” Appx 1776, 30 (emphasis added). There is
nothing equivocal about this statement. Therefore consistent with the standards for
opposing a motion for summary judgment specified by the Supreme Court in
Celotex. The declaration of the Petitioner is sufficient to create s genuine issue of
material fact. See also Goodyear 824 F.2d ar 957 n.2 (“The law is clear, however,
that a party may oppose summary judgment by any of the kinds of evidentiary
materials listed in [Fed.R.Civ.P.] 56(c), except the mere pleadings
themselves.”)(citation and internal quotes emitted) (emphasis added).
As seen from App 99a, 114a-127a), Elisa Wickham, the code enforcement
coordinator for the city of Schenectady issued a letter regarding Schenectady 40 on
October 9, 2009.
In this letter, Ms. Wickham stated that the units at Schenectady 40: (1) “have no
outstanding violations”; (2) “have a rental inspection for all tenants”; and (3) “every
property has passed inspections.” (emphasis added).

10

The government argues that this letter “in way addressed the specific
post-closing repair requirements listed in attachment E in the bid kit, and thus has
no bearing on whether petitioner completed the repairs.”
The point is that since the units at Schenectady 40 would be occupied by residents
of Schenectady, Schenectady has a more vested interest than HUD in ensuring that
the units at Schenectady 40were decent, safe and sanitary before it issued a rental
inspection certificate.

It is illogical to think that the units at Schenectady 40 would have passed
Schenectady inspection of the units and Schenectady would have issued rental
certificates for the units, if, as asserted by the government/' Petitioner completed
only 38% of the repairs required by the bid kit.”. Therefore, a valid inference may be
drawn from Ms. Wickham letter that petitioner did, in fact, complete the required
repairs at Schenectady 40 by the time Ms. Wickham issued her letter, See
Anderson, 477 U.S. at 255 (stating that in considering a summary judgment
motion”all justifiable inferences are to be drawn” in the non-movant favor).
The Government argues that contrary to petitioner assertion, the deadline to
complete the repairs at Schenectady 40 was not extended till November 2009. In
support of its argument, the government points to the November 2008 letter from
HUD to petitioner in which “HUD notified him that he was in breach of the use
agreement requiring him to complete the repairs [at Schenectady 40] by July 2008.”
According to the government, this letter required that any extension had to be
approved by HUD and was contingent on petitioner submission within ten days of
the date of the letter a schedule for the completion of the required repairs,
As noted by the government, “[i]n March 2009 HUD inspectors conducted a
” HUD inspector inspected the units
follow-up inspection of each of the 40 units
again on August 11, 2009. After the inspection, “HUD concluded that petitioner
failed to meet his obligation under the use agreement and HAP (housing assistance
payment) contract.”As a result, HUD “ abared the HAP contract and retained the
petitioner escrow.
The inspections in March and November 2009 happened after the alleged
deadline of July 2008. Clearly, HUD acted as if the deadline had been extended.
Therefore the petitioner has raised an inference that the deadline was extended.
The govt, argues even if the deadline was extended, “there is no credible
evidence that repairs was completed by October 2009.

11

The court of appeals in its ruling, App 11a, last paragraph said “Even if
Halim had completed the post closing repairs by October 2009, the fact was not
material” because it was beyond July 2008 deadline.
It is easy to infer from the Court of appeals for the federal Circuit statement
and the Government statement that Petitioner completed the repairs on time.
Even HUD deponent (Lisa puglese) conceded that Halim could have competed the
repairs by then. In addition, the government asserts that Halim contention that the
repairs were completed by October 2009 is belied by HUD inspection reports.”
Unrealistic does mean impossible, Moreover, as discussed above, the units at
Schenectady 40 would not have passed the inspection by the City nor would City

have issued rental certificates for all the tenants at Schenectady 40 was as dire as
alleged by the Government. Therefore, there is a genuine issue of material fact as to
whether Petitioner completed the repairs at Schenectady 40 in a timely manner.
Accordingly, the Government is not entitled to summary judgment on count I.
B.
The GOVERNMENT is not entitled to a summary judgment on count
II of the complaint because a genuine issue of material fact in dispute as to
whether Petitioner maintated Schenectady 40 in accordance with HUD
(UPCS)
With respect to Count II of the complaint, the government asserts that “the
letter from [ Ms. Wickham] has no bearing on the issues in this case.” This is
essentially, because the letter does not mention UCPS inspection.
Incidentally Ms. Wickham is now UCPS inspector for HUD Schenectady authority
And she provided several letters regarding UCPS. If the apartments are passing
UCPS from 2008 till 2020(APP 99a, 114a-127a) what is the Government Problem?
As discussed above, the city of Schenectady has the most abiding interest to
ensure that the units at Schenectady 40 were decent, safe, and sanitary for the
residents of Schenectady 40. Therefore the fact that Schenectady issued a rental
inspection certificate for all of the units is clearly relevant and creates a genuine
issue of material fact regarding whether the units were in compliance with the
UPCS. The city certainly would not have issued a rental inspection certificate for
each of the units if there had been any issues with respect to the physical conditions
of the units. In fact, a project must comply with applicable State and local physical
condition standards. See C. F. R. at 5.703(g) (“The physical condition standards in
this section do not supersede or preempt State and local codes for building and

12

maintenance with which HUD housing must comply. HUD housing must continue
to adhere to these codes”).
As stated in the Halim decleration all the units passed UCPS in 2008 and
also from the testimony of Lisa Puglese,(App 104a), and App 60a. Halim stated that
all units were occupied with income-eligible tenants'' and Halim “was receiving
subsidy payments from HUD for each of the units'' at the time HUD abated the
Schenectady 40 HAP contract. This is significant because “Section 8 payments may
be made only for project units which are determined to be decent, safe and
sanitary." 24 C. F. R. at 886.304(b).
The government asserts that “Halim's conclusory statement in his decoration
does not create a genuine issue of material fact.”

Again, the government has misapprehended the requirements under Rule 56. From
the evidence discussed above, a valid inference may be drawn that the units at
Schenectady 40 were in compliance with UPCS when HUD terminated the HAP
contract. Otherwise, HUD would have begun making payments to Halim, the units
at Schenectady 40 would not have passed the City inspection of the units, and the
City would not have issued a rental certificate for each of the units. See Anderson
477 U.S. at 255 (stating that in considering a summary judgment motion “ all
justifiable inferences are to be drawn” in the non movant favor).
Therefore, the Government is not entitled to summary judgment on count II
of the complaint since there is a genuine issue of material fact in dispute as to
whether Petitioner maintained Schenectady 40 apartments in accordance with the
UPCS.
Ill

MISSISSIPPI Apartments aka Meadowbrook Apartments.
A.
Petitioner Is entitled to summary judgment on Count III of the
Complaint Because it was Impossible for Petitioner to complete the
required repairs at Meadowbrook After the Stop Work order was
Issued.
With respect to count III of the complaint, the Government argues that
“the lower court can not rely on impossibility to excuse his failure” to make
the required repairs at Meadowbrook. This is because the trial work found
that Halim did not introduce any “ evidence to establish that it was
objectively impossible for him to complete the required repairs or maintain
the properties in compliance with UPCS”.The Government is wrong.

13

Halim's final deadline for completing the repairs at Meadowbrook was,
in accordance with HUD process for declaring a default, extended from
January 2011 till January 2, 2012. This process is consistent with the
requirements under Meadowbrook use agreement, that Halim be provided
with written notice of an alleged violation at Meadowbrook and at least 30
days to remedy the violation
The stop work order issued by Meridian, was in effect during this
entire period of time. Moreover, the city manager of Meridian threatened to
arrest the petitioner if he did any work at Meadowbrook while the stop work
order was in effect. Therefore it was objectively impossible for him or anyone
else to complete the repairs during this period.

The government asserts that “[Meridian] issued the stop work order as
a consequence of Halim's own failure to meet the imposed deadlines even
after they were twice extended by a year. Petitioner has an agreement with
the Government not the City regarding the repair. If the government was
serious about finishing the remaining repairs (6%) in 2011, why it did not
exercise its authority over this locality to force the city to let Halim finish the work,
instead the government was silent about the threat and abuse he was experiencing
from this abusive city manager, not only he threatened the petitioner but ultimately
hit the Police Chief which resulted in his firing by the end of 2011, apparently the
government was on the abusive side, Good job Government!!!!!!!!!!!!!!!!!!!!! , and this
is the same government,for which the United States Court of Appeals for the federal
Circuit and the trial court, both held its officials discharge their duties in good faith.
Great!!!!!!!!!!!!!!!
Still the Government with no shame argues that “Halim can not
excuse his performance under the agreement by attempting to evade the
consequences of [his] own actions and inactions.” However Halim is not
attempting to evade the consequences of his actions. Rather, as conceded by
the government, Halim completed 94% of the repairs by December 20, 2010.
Appx 215 Therefore, the evidence shows that the petitioner was making
steady progress in completing the repairs until Meridian issued a stop work
order.
The Government also argues that “ HUD formal notice of violation did
not alter Halim deadline to complete [the] repairs. According to the
government, this is because Halimwas not prejudiced by the alleged failure of
HUD to provide a formal notice of violation till December 2, 2011.

14

As discussed above, Halim was entitled to a written notice of an
alleged violation of the Meadowbrook agreement and HUD procedures before
HUD declared a default, and at least 30 days to correct the violations under
the Meadowbrook agreement and HUD procedures before HUD declared a
default and pursued any remedy to which HUD may have been entitled.
Cf alii v. United States, 83 Fed. Cl 250, 253 (2008) (observing that for
a default of the HAP contracts at issue, the contracts required HUD to notify
the owner of “the nature of the default” “[t]he actions required to be taken” to
remedy the default and “[t]he time within which the owner” had to remedy
the default). Therefore, whether Halim was prejudiced by HUD failure to
provide a notice by December 2, 2011 is irrelevant. The Government cites
Philadelphia Regent Builders v. United States, 634 F2d 569 (Ct. CL 1980) in
support of its argument that the Meadowbrook agreement deadline was not
extended because Halim was not prejudiced by HUD failure to provide a
notice of violation until December 2, 2011. In that case,the court found that
although the termination notice at issue contained several technical defects, the
defects gave the plaintiff “no cause to complain” because the defects did not cause
the plaintiff any harm .Id. at 572-573.
The defects in the notice were: “the notice did not have the proper contract number
and date; it did not state that the government reserved all its rights and remedies;
it did not state that the Government reserved all its rights and remedies; it did not
state that the notice constituted a decision pursuant to the disputes clause; and it
was not signed by the contracting officer.” Id at 572. Despite these defects, the court
found that the plaintiff “was not misled by the notice” and that “all essential
information was conveyed by the notice” as evidenced by the fact that the plaintiff
made “a timely appeal of the contracting officer decision and appeal was tried on the
merits before the beteran administration contract appeals board (VACAB).In
addition the plaintiff did not “claim that it was harmed in any way by the admitted
defects of the notice.”
In contrast, in this case it is not the information in the notice, or what
information was not on the notice, that is at issue. Rather, it is the fact that
Halim was entitled , under the meadowbrook agreement and HUD
procedures to receive a written notice of an alleged violation and, in
accordance with such a notice, at least thirty days to remedy the violation.
As noted above, Halim had completed 94% of the repairs at
Meadowbrook by December 20, 2010. In accordance with HUD process for
declaring the default of an agreement with HUD, and as required by the
Meadowbrook agreement, Halim would have until at least February 14, 2011

15

to complete the repairs if HUD had issued the agreement on January 16,
2011, the day after the preliminary January 15, 2011 deadline.lt is entirely
possible that Halim could have completed the remaining 6% of the repairs by
then.Therefore Halim was in fact prejudiced by HUD by HUD failure to
provide a notice of violation until December 2,2011.
Lastly, the Government argues that “Halim provides no evidence in
the record” to support” his claim that he completed the repairs after the stop
work order was lifted. In support of his claim, Halim stated in his sworn
undisputed declaration that he completed the repairs when the stop work
order was lifted. As discussed above, this is sufficient under the standards
specified by the US Supreme Court in Celotex.
However, contrary to the government assertion, Halim did provide
certificates of occupancy for all buildings (See APPx ) issued by the City of
Meridian.were issued in 2012 after the stop work order was lifted. The United
States Court of Appeals erred when stated Halim provided only 3 certificates (App
21a) contrary to what is in the record(App 80a-88a) which are 9 certificates.
A valid inference may be drawnHalim completed the repairs after the stop
work order was lifted, otherwise the city would not have issued the
certificates. Anderson, 477 U,S, at 255 stating that in considering a summary
judgment motion “all justifiable inferencsare to be drawn” in favor of the non
movant favor).
B.
The Government is Not Entit;ed to Summary Judgment
on Count IV of the Complaint Because a Genuine Issue of Material
Fact In Dispute as Whether Petitioner Maintained Meadowbrook in
Accordance with HUD UPCS
With respect to count IV of the complaint and the Meadowbrook HAP
contract, the Government argues that “Halim conclusory contensions,
however are devoid of any support in the record.”
One of the inspection reports primarily relied on by the Government to
support its argument is the January 12, 2012. However, the January 2012
inspection is not relevant because it was conducted during the time the stop
work order was in effect. Nor any other inspection conducted when the stop
work order was in effect.
The Government also points to inspection conducted in 2010 to support
its argument, However, as conceded by the government, a UPCS inspection is
a snapshot in time. Therefore The 2010 inspections are not relevant.What is

16

relevant is whether Meadowbrook was in compliance with UPCS inspection
when HUD bagan iits enforcement action on December 2, 2011.
Since HUD bagan its enforcement actions on December 2, 2011, Halim
had until at least January 2, 2012 to make the repairs and do the work
necessary to bring the units at Meadowbrook into compliance with the UPCS,
HUD stated in the notice, App (“ You must correct the violations
specified above within 30 days of the of this Notice.”). However, Halim was
prohibited, under the threat of arrest, from doing any work at Meadowbrook
for almost all of 2011 and part of 2012. App ,Therefore Halim was excused
from his performance under the Meadowbrook HAP until the legal
impediment to completing the repairs was lifted.
The government disputes that a valid inference may be drawn from the
certificates issued by the ;local authority for all the buildings at
Meadowbrook met UPCS, relaying on the erroneous statements of the trial court
and the appeals court that only 3 certificates were issued contrary to the record,
Appx
In his undisputed declaration, Halim stated that he completed the repairs
supported by the certificates of occupancy. Therefore a valid inference may be
drawn from the certificates of occupancy issued by the City that all of the units at
Meadowbrook met the UPCS as soon as practicable after the legal impediment to
completing the repairs at Meadowbrook was removed. Otherwise, the units
at Meadowbrook would not have passed the City inspection, nor the City issued
certificates of occupancy for all the units, therefore according to the standards of the
U.S. Supreme Court in Anderson, 477 U.S. at 255 (stating that in considering a
summary judgment motion “all justifiable inference are to be drawn” in the non
movant favor).
Also as discussed above, Meridian issued by (the hateful abusive city
manager, fired after hitting the Police Chief which happened to be black) the
stop work order even though Halim was making steady progress in
completing the repairs at Meadowbrook as evidenced by the 94% work
completion. Again what is the government problem?, today is August 6, 2020,
Meadowbrook as a gated community serving the low income good citizens of
Meridian with no complaint from no one except the government because of
the little guy religion and national origin.(App 80a-88a)
Therefore, Petitioner actions were not the cause for issuance of the
stop work order. Rather the city manager at the time moved the tape
as Petitioner was nearing the finish line.

17

IV.

North Carolina Apartments aka Beacon Light.

A.
Petitioner is Entitled to Summary Judgment on Count VI
of the Complaint, Because Neither Party knew that Beacon Light Did
not Comply with the Density and set back requirements.
The government points to the provision in the bid kit that notified
prospective bidders that they were expected to “arrive at their own
conclusions as to the physical condition... and any factors bearing upon the
valuation of the property

According to the government, “if the bid kit only intended to the physical
conditions of the property,” as asserted by Halim, “there would be no need to
include the final phrase that the bidders should additionally arrive at their
own conclusion regarding any other factors bearing upon the property valuations.”
The provision “any other factors” is extremely broad. The “factors” that might have
a bearing on the value of Beacon Light are extensive; almost anything may have a
bearing on Beacon Light value. It would be fundamentally unfair to require Halim
to try and determine all of the possible factors beyond the physical condition of
Beacon Light that might have had a bearing on its value. Beacon Light was
operating as a multi family project at the time of the foreclosure sale. Th may have
been some vandalierefore, there was no reason for Halim to question whether the
project was in compliance with the zoning code. He assumed as any reasonable
person, that it was in compliance
The government in another document( Appl05a) titled “USE
RESTRICTIONS” highlighted in yellow “Potential bidders should be
aware that building “9” located at 432 Boddie street, was damaged by
fire and there may have been some vandalism at the property The
high bidder will be required to complete all of the repairs noted in
Attachment E post closing Repairs Requirements plus repair to State
and local code all fire damage/vandalism that has occured or may
occur prior to closing on the sale. This requirement should be
factored into the bid”
As we learned later Building [9] was among the buildings in violation
of the city code. [T]he United states court of appeals in its ruling page 20
stated “Purchasers were expected to acquaint themselves with the
property, and to arrive at their own conclusion as to physical

18

conditions and any other factors bearing upon the valuation of the
property.
It is easily inferred from the above two statements that the factor of
code violation was not one of the factors to be considered with a reasonable
person. The question to the Court, why the government will ask you to repair
a building [9] which should be demolished according to the City.
As stated by Justice Sotomayor (writing for the majority), due diligence
is not a silver bullet in CITGO ASPHALT REFININGCO. V. FRESCATI
SHIPPING CO., 589 ,U.S. Supreme Court, March 2020
Justice Sotomayor also stated, But “[w]hen a written contract is
ambiguous, its meaning is a question of fact, requiring a determination of the

intent of [the] parties in entering the contract”; that may involve
examining “relevant extrinsic evidence of the parties intent and the meaning
of the words that they used.. Obviously no one can find more ambiguous
agreement than HUD bid kits, specifically North Carolina and Alabama
Projects.
Petitioner also argued that Edwards v. United States (Both the appeals and trial
courts relied on their rulings), 19 CL Ct. 663 (1990) is inapplicable because the
sentence quoted by the court from Edward was from the court discussion on the
plaintiff misrepresentation claim.The government dispute Halim argument on the
basis of the statement that the plaintiff “filed a cross motion for summary judgment
based on their misrepresentation claim, contending that the misrepresentation
amounts to a mutual mistake of fact of the law.”(citing Edwards, 19 CL Ct. at 669).
Edwards considered the plaintiff misrepresentation claim, 19 CI. Ct. at
669-673, and the “Plaintiff legal authority of mutual mistake of fact or
law”.at 673-675. The elements of a misrepresentation claim, at 670, are
different than the elements of fact claim. Dairyland Power Coop. v. United
States, 16F. 3d 1197,1202 (Fed. Cir. 1994). Therefore, any discussion in
Edwards of the Plaintiffs mis representation claim including the sentence
quoted by the trial court and affirmed by the appeals court, are not relevant.
In finding that there was no mutual of fact or law, the court focused on
the fact that the Postal Service used “the open advertising” method to procure
a new location for the post office “because it does not require the Postal
Service employees to investigate zoning and other requirements pertaining to
a proposed site” Edwards 19, 19 CI. Ct. at 665. Instead, “[t}he bid Invitation
contained provision warning the bidders of their responsibility for basing
their bids on properly zoned property, and for obtaining proper zoning if

19

necessary.” In addition, prospective bidders received an agreement to lease
which contained a Permits and Responsibilities “which required the
contractor to comply with all applicable federal, state, and local laws and
regulations in performing the contract.” Therefore, the court found that the
Plaintiff bore the risk pertaining to the zoning for the new post office which
the “[pjlaintiff seemed to concede at oral argument.” at 674.
As discussed above, Edwards was clear cut while the bid kit for Beacon
Light was ambiguous, it does not contain a provision that addresses zoning or
a provision that required Halim to comply with all laws and regulations.
Therefore Edwards not relevant but the CITGO decided by the U.S. Supreme
Court seems to be relevant and in Petitioner favor so the Government should
return the one mi;,’ion three hundreds thousands fifty dollars ($1,350,000.00)
based on allegations of deception by the Government officials either
intentionally or not intentionally.
B.
Petitioner is Entitled to Summary Judgment on counts VIII of the
Complaint Because it was Impossible for him to Make the Repairs at
Beacon Light.
The Government disputes Halim's argument that he wes excused from
his performance under the Beacon Light agreement under the doctrine of
impossibility . Also it argues that Halim is incorrect in his assertion that the
deadline for completing the repairs specified in the Beacon Light agreement
was not the final deadline. According to the government, “Halim deadline did
not depend on whether HUD timely provided notice of Halim default because
Halim received meaningful and repeated notice that his failure to complete
the repairs at Beacon Light constituted a violation under the use agreement.
Under the Beacon Light use agreement, and in accordance with the
HUD process for declaring a default, Halim was entitled to a written notice of
any alleged violation at the Beacon Light agreement, and at least 30 days to
correct the violations. This contractual right is substantially different from
the technical defects of the notice at issue in Philadelphia Regent Builders
specified above that the court deemed insufficient to invalidate the notice.
Therefore, HUD failure to comply with the Beacon Light contract, and its
own procedures, is not excused by the notices provided by HUD to Halim.
None of these notices were formal notices of a violation which specified the
alleged violation and provided Halim with at least thirty days to correct the
violation. (“I have found no record where we have sent to the owner [of

20

Beacon Light] a [Notice of violation] or [Notice of default]letters
I only
saw one letter dated March 11, 2009 that could be considered a possible
warning letter”) (emphasis added).
The government also argues that the “court correctly found that Halim
was comp licit in any impossibility due to the City of Henderson denial of a
Variance.” In support of its argument, the government points out to the fact
by the time Halim applied for a variance, “There had been fires which had
damaged or destroyed several buildings.” (citation omitted). The government
also points out to the fact that Beacon Light was condemned by Henderson on
August 10, 2009 and Henderson denial of Halim

\

“variance application.” Therefore, according to the Government, “to the
extent that making repairs without the City Permit was actually impossible,
Halim's own actions created the impossibility.”
The government point is far beyond a reasonable explanation, in that
Halim did not set the fires, it was ignited by some criminals as a result of the
City manager racist comments about Halim in the local newspapers, None of
the problems created by Henderson were created by an affirmative act of
Halim. Therefore Halim's actions did not create the impossibility.
Accordingly, Halim was excused from his performance of the Beacon Light
contract under the doctrine of impossibility because Henderson refusal to
approve the special use permit and zoning variance and the demolition of
Beacon Light made it impossible for him to complete the repairs at Beacon
Light.
V.
Alabama Apartments aka Highland Village Apartments in
Montgomery, to recover his $1,555,000.00.
Petitioner is entitled to summary judgment on counts IX, X and XI of
the complaint(App 128a)
As stated before, the government held two foreclosure sales for this
property. In the first sale, the bid kit was a clear cut, The sake did not go on/
HUD used the same bid kit for the same list of repairs plus ambiguous
statements to sell the project to Halim. In the first sale, the project was
habitable with tenants living, and in the second sale it was gutted abandoned
project. Bidders rely mainly on the list of the required repairs in the bid kit.

21

The question to the Court, why HUD did not send their inspector and prepare
a new list of repairs to reflect the reality rather than using ambiguous
statements.
For the same legal reasons, discussed in Beacon Light, Petitioner is entitled
to get his ($1,550,000.00) back.

CONCLUSION

HUD failure to approve Halim to self manage Nichols was arbitrary as
demonstrated by the fact that HUD already approved Halim to self manage
five other projects when HUD refused to approve him to self manage Nichols.
The arbitrariness of HUD decision is further demonstrated by the fact
that HUD approved Halim to self manage other three projects after HUD
refused him to self manage Nichols. Therefore, Halim is entitled to summary
judgment on count V of the complaint.
There is a genuine issue of material fact in dispute as to whether
Halim completed the repairs at Schenectady 40. There is also a genuine issue
of material fact in dispute as to whether Halim maintained Schenectady 40
in compliance with HUD UPCS inspection.Therefore, the Government is not
entitled to summary judgment on either count I or count II of the complaint.
Halim's obligation to complete the repairs at Meadowbrook was
discharged under the doctrine of impossibility when it became impossible for
him to complete the repairs after Meridian issued a stop work order.
Therefore, Halim is entitled to summary Judgment on count III of the
complaint.
Alternatively, as discussed before, Halim's obligation to complete the
repairs at Meadowbrook was suspended under the doctrine of impossibility

22

while the stop work order was in effect. Halim is, therefore entitled to
summary judgment on count III since he completed the repairs after the stop
work order was lifted.
Under the doctrine of impossibility, Halim was excused from his
obligation under the Meadowbrook HAP contract to maintain Meadowbrook
in accordance with UPCS until the stop work order was lifted. Since there is
a genuine issue of material fact in dispute as to whether Meadowbrook was in
compliance with UPCS after the stop worker order was lifted, the
Government is not entitled to summary judgment on count IV of the
complaint.
Neither Halim nor HUD knew at the time Halim bought Beacon Light
that Beacon Light was not in compliance with the applicable zoning laws.
Therefore Halim is entitled to summary on count VI of the
complaint because Halim and HUD made a mutual mistake of fact.
Henderson refused to issue the permits or to approve the special use
permit and zoning variance that would have enabled Halim to make the
repairs he was obligated to make at Beacon Light. Therefore Halim is entitled to
summary judgment on count VIII of the complaint. Because it was impossible for
him to make the required repairs at Beacon Light. It was also impossible for him to
make the repairs because with HUD approval, Henderson demolished Beacon
Light
Finally, as discussed above, Halim is entitled to summary judgment on
counts IX, X, and XI.
For the forgoing reasons, the little guy prays that his petition for a writ
of certiorari should be granted.
Respectfully submitted,
Ahmed Halim
8338 Governor Grayson way
Ellicott City, MD 21043
(601) 227 2000
schenectady40apartments@gmail.com

23

